                                     SOCIAL SECURITY
MEMORANDUM

Date:   December 27, 2010                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance   Indicator Audit: Electronic Service Delivery (A-15-10-11073)


        We contracted with KPMG to evaluate 10 of the Social Security Administration’s
        performance indicators (PI) established to comply with the Government Performance
        and Results Act. The attached final report presents the results of three of the PIs
        evaluated. For the PIs included in this audit, KPMG’s objectives were to:

        1. Comprehend and document the sources of data that were collected to report on the
           specified PI.

        2. Identify and test critical controls (both electronic data processing and manual) of
           systems from which the specified performance data were generated.

        3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
           the underlying data for the specified PI.

        4. Recalculate each measure to ascertain its accuracy.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                             Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE INDICATOR AUDIT:
    ELECTRONIC SERVICE DELIVERY

     December 2010   A-15-10-11073




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      December 20, 2010

To:        Inspector General

From:      KPMG, LLP

Subject:   Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)


OBJECTIVE
The Government Performance and Results Act of 1993 (GPRA)1 requires that the
Social Security Administration (SSA) develop performance indicators (PI) that assess
the relevant service levels and outcomes of each program activity. 2 GPRA also calls for
a description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained does this.

For this audit of SSA PIs, Achieve the target percentage of initial disability claims filed
online; Achieve the target percentage of retirement claims filed online; and Achieve the
target percentage of paper Forms W-2 received for Fiscal Year (FY) 2009, our
objectives were to:

1. Comprehend and document the sources of data that were collected to report on the
   specified PI.
2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were generated.
3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for the specified PI.




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                                1
4. Recalculate each measure to ascertain its accuracy.


                                           ******************
This performance audit did not constitute an audit of financial statements in accordance
with government auditing standards. KPMG was not engaged to, and did not, render an
opinion on SSA’s internal controls over financial reporting or over financial management
systems (for purposes of Office of Management and Budget [OMB] Circular No. A-127,
Financial Management Systems, January 9, 2009, as revised). KPMG cautions that
projecting the results of our evaluation to future periods is subject to the risk that
controls may become inadequate because of changes in conditions or because
compliance with controls may deteriorate.

BACKGROUND
We audited the following PIs, which were included in SSA’s FY 2009 Performance and
Accountability Report (PAR).


            Performance Indicator                 FY 2009 – Target         FY 2009 – Actual

    Achieve the target percentage of
                                                        18%                     21%
    initial disability claims filed online 4
    Achieve the target percentage of
                                                        26%                     32%
    retirement claims filed online 5
    Achieve the target percentage of
                                                        17%                     16%
    paper Forms W-2 received 6




4
    FY 2009 PAR, p. 55.
5
    FY 2009 PAR, p. 57.
6
    FY 2009 PAR, p. 68.


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                      2
The strategic goals and objectives related to these performance indicators are as
follows.

      Performance Indicator                  Strategic Goal            Strategic Objective
         Achieve the target              Improve the speed and     Make it easier and faster to
        percentage of initial                quality of SSA’s       file for disability benefits
    disability claims filed online 7        disability process 8               online 9
         Achieve the target               Improve SSA’s retiree    Dramatically increase baby
      percentage of retirement                and other core       boomers’ use of our online
        claims filed online 10                  services 11            retirement services 12
         Achieve the target                Preserve the public’s
                                                                   Maintain accurate earnings
    percentage of paper Forms                 trust in SSA’s
                                                                            records 15
           W-2 received 13                      programs 14

According to SSA, “Our Mission: Deliver Social Security services that meet the
changing needs of the public.” 16 SSA administers the Old-Age, Survivors and Disability
Insurance (OASDI) and Supplemental Security Income (SSI) programs. The OASDI
program, authorized by Title II of the Social Security Act (Act), provides income for
eligible workers and for eligible members of their families and survivors. 17 The Disability
Insurance (DI) program, also authorized by Title II of the Act, provides income for
eligible workers with qualifying disabilities and eligible members of their families, before
those workers reach retirement age. 18 The SSI program, authorized by Title XVI of the
Act, was designed as a needs-based program to provide or supplement the income of
aged, blind, and/or disabled individuals with limited income and resources. 19 A claimant
may receive disability benefits under the DI and/or SSI programs.




7
    FY 2009 PAR, p. 55.
8
    FY 2009 PAR, p. 17.
9
    Id.
10
     FY 2009 PAR, p. 57.
11
     FY 2009 PAR, p. 18.
12
     Id.
13
     FY 2009 PAR, p. 68.
14
     FY 2009 PAR, p. 19.
15
     Id.
16
     FY 2009 PAR, p. 7.
17
     The Act § 201, 42 U.S.C. § 401.
18
     Id.
19
     The Act § 1601, 42 U.S.C. § 1381.


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                           3
Online applications for disability and retirement claims have increased dramatically in
recent years. The PAR states that, “In FY 2009, almost 600,000 individuals filed for
disability benefits online. This was more than a 100-percent increase over FY 2008
(260,902),”20 and “In FY 2009, 833,433 individuals filed for retirement benefits online.
This was more than a 100-percent increase over FY 2008 (407,443).” 21 These
increases reflect SSA’s efforts to achieve its strategic goals and objectives.

As part of the effort to reduce paper wage reports (Form W-2, Wage and Tax
Statement), SSA continues to promote and encourage employers to submit electronic
wage reports. As stated in the PAR, annually SSA “. . . receive[s] over 43 million paper
wage reports from approximately 4.4 million employers.” 22 Reducing the number of
paper wage reports filed will increase efficiency in SSA’s processing since paper wage
reports are more error-prone, labor-intensive, and expensive to process.

RESULTS OF REVIEW
We noted several instances where SSA was unable to provide data related to the
critical internal controls over the systems from which the specified performance data
were generated for the three PIs: Achieve the target percentage of initial disability
claims filed online; Achieve the target percentage of retirement claims filed online; and
Achieve the target percentage of paper Forms W-2 received.

We also noted several instances where SSA was unable to provide underlying data to
support the adequacy, accuracy, reasonableness, completeness, and consistency of
the PIs Achieve the target percentage of initial disability claims filed online and Achieve
the target percentage of retirement claims filed online.

Achieve the Target Percentage of Initial Disability Claims Filed Online

Indicator Background

A disability claim is initiated when a claimant files an initial disability application and
SSA Form 3368, Adult Disability Report, or SSA Form 3820, Child Disability Report.
The application and Form 3368 or Form 3820 can be submitted to SSA by a claimant in
one of three ways:

       over the Internet (via SSA’s Website),
       over the telephone, or
       by visiting a local field office.


20
     FY 2009 PAR, p. 55.
21
     FY 2009 PAR, p. 57.
22
     FY 2009 PAR, p. 68.


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                      4
All initial disability applications are processed at 1 of more than 1,300 field offices, which
are aggregated into 10 regions. Regardless of how a claim is filed (Internet, telephone,
or field office), a local field office representative reviews all initial disability claims
submitted. To file a claim, a claimant or a third-party representative appointed by the
claimant must, at a minimum, file an initial disability application and SSA Forms 3368 or
3820. There are other forms that may be required depending on the claimant’s work
status, age, disability allegations, mental health, income, work history, and education.
However, either SSA Form 3368 or Form 3820 are required for all claimants as these
Forms contain the information necessary for determining whether an individual qualifies
for DI or SSI. The submission of additional technical forms and representations may be
necessary based on the claimant’s particular disability and eligibility for Title II or XVI
disability benefits.

To apply for disability benefits online, an applicant accesses the application, iClaim, on
SSA’s Website. Claimants can use the iClaim application to establish a claim for DI, but
not for SSI. When a disability claim is initially entered using iClaim, an indicator is set in
the record that indicates the information was initially received online. The claimant’s
disability application is automatically entered into SSA’s Modernized Claims System
(MCS) in real-time when a claims representative selects the claim and begins
processing the case. For claims submitted via telephone or in person through a local
SSA field office, a claims representative must enter the claimant’s information into MCS
for Title II claims. Once a claim is submitted into MCS the initial disability application,
disability report, and all relevant supporting documentation (medical records, expert
testimony, work history, etc.) must be either scanned (for paper documents) or
transmitted electronically (when available) into the Electronic Disability Collect System
(EDCS). The record is stored in EDCS, and the claim is concurrently transmitted to the
applicable disability determination services office.

The performance target is calculated by dividing the number of initial disability claims
filed online by the total number of initial disability claims that could be filed online.


Performance Indicator Calculation

                                                   Total number of initial Social Security
 Percentage of initial disability claims          disability claims filed online in FY 2009
                                             =
            filed online                         Total number of initial disability claims that
                                                       could be filed online in FY 2009




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                      5
Findings

We noted one instance where SSA could not provide the data related to the internal
controls over the systems supporting the PI. We noted one instance where SSA could
not provide the underlying data related to the adequacy, accuracy, reasonableness,
completeness, and consistency of the specified PI in the FY 2009 PAR.

Critical Internal Controls - Completeness
In accordance with Government Accountability Office (GAO) Standards for Internal
Control in the Federal Government, transactions should be recorded completely,
accurately, and timely. 23 We were unable to obtain the run-to-run logs that supported
the updating of the Management Information databases because SSA had no
requirement to maintain the Management Information detail supporting the PI. These
databases are used to create the reports from which the performance results for the PI
are tabulated. As a result, we were unable to test critical internal controls over the
systems from which the performance data were generated.

Adequacy, Accuracy, Reasonableness, Completeness, and Consistency of Underlying
Data
In accordance with GAO Standards for Internal Control in the Federal Government,
transactions should be recorded completely, accurately, and timely. 24 We were unable
to obtain the detailed data supporting the PI because SSA had no requirement to
maintain it. As a result, we were unable to verify the adequacy, accuracy,
reasonableness, completeness, and consistency of the underlying data for this PI.

As an alternative audit procedure, we reviewed supporting FY 2010 data for this PI.
Although we could not review an entire year, we did not find any discrepancies or issues
with the underlying data or the calculations for FY 2010.

Achieve the Target Percentage of Retirement Claims Filed Online

Indicator Background

An individual is entitled to retirement benefits when they are fully insured, attain age 62,
and file an application for benefits. To apply for retirement benefits online, an applicant
accesses the application, iClaim, on SSA’s Website. When a retirement claim is initially
entered using iClaim, an indicator is set in the record that indicates the information was
initially received online. The claimant’s retirement application is automatically entered
into SSA’s MCS in real-time when a claims representative selects the claim and begins
processing the case. For claims submitted via telephone or in person through a local
SSA field office, a claims representative must enter the claimant’s information into MCS.

23
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1,, p.15,
November 1999..
24
     Id.


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                      6
Only after a retirement benefit claim has been reviewed and flagged as completed will it
be automatically entered into MCS.

The calculation of the performance target is performed by dividing the number of
retirement claims filed online by the total number of retirement claims that could be filed.


Performance Indicator Calculation

                                                             Total number of retirement claims filed
 Percentage of retirement claims filed                                online in FY 2009
                                                    =
                online                                       Total number of retirement claims that
                                                               could be filed online in FY 2009 25

Findings

We noted one instance where SSA could not provide the data related to the internal
controls over the systems supporting the PI. We noted one instance where SSA could
not provide the underlying data related to the adequacy, accuracy, reasonableness,
completeness, and consistency of the specified PI in the FY 2009 PAR.

Critical Internal Controls - Completeness
In accordance with GAO Standards for Internal Control in the Federal Government,
transactions should be recorded completely, accurately, and timely. 26 However, we
were unable to obtain the run-to-run logs that support the updating of the Management
Information databases. These databases are used to create the reports from which the
performance results for the PI are tabulated. SSA had no requirement to maintain the
Management Information detail supporting the PI. As a result, we were unable to test
critical internal controls over the systems from which the performance data were
generated.

Adequacy, Accuracy, Reasonableness, Completeness, and Consistency of Underlying
Data
In accordance with GAO Standards for Internal Control in the Federal Government,
transactions should be recorded completely, accurately, and timely. 27 We were unable
to obtain the detailed data supporting the PI because SSA had no requirement to
maintain it. As a result, we were unable to verify the adequacy, accuracy,
reasonableness, completeness, and consistency of the underlying data for this PI.



25
     Medicare claims could not be filed online in FY 2009.
26
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, p. 15,
November 1999.
27
     Id.


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                               7
As an alternative audit procedure, we reviewed supporting FY 2010 data for this PI.
Although we could not review an entire year, we did not find any discrepancies or issues
with the underlying data or the calculations for FY 2010.

Achieve the Target Percentage of Paper Forms W-2 Received

Indicator Background

The Internal Revenue Service Restructuring and Reform Act of 1998 (RRA 98)28
authorized the Electronic Tax Administration Advisory Committee (ETAAC) to provide
feedback to the Internal Revenue Service (IRS) on electronic tax administration. RRA
98 requires that ETAAC annually report to Congress on the IRS’ progress in meeting
the goal to receive electronically 80 percent of tax and information returns. SSA
receives its W-2s on behalf of the IRS and has established the same goal to achieve an
80-percent electronic filing rate.

SSA supports two methods of receiving IRS Forms W-3, Transmittal of Wage and Tax
Statements, and W-2: electronically or hard copy. For the electronically captured
method, the employer enters its Forms W-3 with W-2 via SSA’s Website. The hard
copy method requires that the employer send hard copies of its W-3 with W-2s to SSA’s
data operations center in Wilkes-Barre, Pennsylvania. Electronically entered W-3s with
their associated W-2s are entered through SSA’s employer Website in one of four ways:

       Electronic Data Transfer,
       Online Wage Reporting System-Internet,
       W2 Online, or
       Web Service.

The W-3s and W-2s received electronically are initially received and stored in an interim
file containing all electronic wage reports received through SSA’s online facility. Hard
copy records sent to SSA’s data operations center in Wilkes-Barre are scanned,
converted into text files, and stored. The hard copy records have the same W-3/W-2
“set” as those entered electronically: one W-3 with a W-2 for each employee who
works, or has worked, for the employer.

The performance target is calculated by dividing the number of paper Forms W-2 by the
total number of Forms W-2 received.




28
     Pub. L. No. 105-206, 112 Stat. 685.


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                8
Performance Indicator Calculation

                                                       Total number of paper Forms W-2
     Percentage of paper Forms W-2
                                               =                   received
                received
                                                      Total number of Forms W-2 received

Findings

We noted one instance where SSA could not provide the data related to the internal
controls over the systems supporting the PI. We did not identify any significant findings
related to the adequacy, accuracy, reasonableness, completeness, and consistency of
the underlying data for the specified PI in the FY 2009 PAR.

Critical Internal Controls - Completeness
In accordance with GAO Standards for Internal Control in the Federal Government,
transactions should be recorded completely, accurately, and timely. 29 We were unable
to obtain the run-to-run logs that supported the updating of the Management Information
databases for 10 of 12 months in FY 2009 (only data for August and September 2009
were available). These databases are used to create the reports from which the
performance results for PI are tabulated. As a result of the Agency’s data retention
policy that permitted data to be effectively purged after 6 months, we were unable to
verify the effectiveness of the controls supporting the performance data population from
which this PI’s performance results were tabulated.

CONCLUSION
For PIs, Achieve the target percentage of initial disability claims filed online; Achieve the
target percentage of retirement claims filed online; and Achieve the target percentage of
paper Forms W-2 received, we were unable to obtain the run-to-run logs that supported
the updating of the Management Information databases and therefore we were unable
to test critical internal controls. For PIs, Achieve the target percentage of initial disability
claims filed online and Achieve the target percentage of retirement claims filed online,
we were unable to obtain the underlying data supporting the PI; therefore, we were
unable to verify the adequacy, accuracy, reasonableness, completeness, and
consistency of the underlying data.

In response to a prior PI audit, SSA stated that the Agency did not maintain data to
support some PIs as a result of computer storage capacity issues and staffing
resources. Over the past several years, technology has evolved. Therefore, this is an
opportune time for SSA to reevaluate computer storage capacity. In prior audits, SSA
also quoted OMB’s Circular A-11, Preparation, Submission and Execution of the
Budget, which previously stated, “Performance data need not be perfect to be reliable,

29
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, p.15,
November 1999.



Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                       9
particularly if the cost and effort to secure the best performance data will exceed the
value of any data so obtained.”30 OMB Circular A-11, as of November 2010, states that
“Performance data need not be perfect to be reliable; however, significant data
limitations can lead to inaccurate assessments and distort performance results.
Examples of data limitations include imprecise measurement and recordings,
incomplete data, and inconsistencies in data collection procedures.”31 Additionally,
OMB Circular A-11, section 230.5, states that verification and validation of performance
data to support the general accuracy and reliability of performance information reduces
the risk of inaccurate performance data and provides a sufficient level of confidence to
the Congress and the public that the information presented is credible. 32 Although we
are not making formal recommendations in this report, we encourage SSA to revisit the
issue of maintaining data to support the PIs reported in the Agency’s annual PAR.
Maintaining the supporting data would enable third party evaluations of the PI, as
suggested by Circular A-11.

AGENCY COMMENTS AND KPMG RESPONSE

While there were no recommendations, SSA stated it would not be implementing any
processes for storing PI data because of technical and staffing constraints. SSA
suggested that KPMG consider an equally effective technique for auditing PI activity in
real time as they produce it, rather than trying to reconstruct Management Information 1
year later.

The text of SSA’s general comments can be found in Appendix D.

KPMG Response
We appreciate the Agency’s comments and consideration of our statements. Reviewing
real-time data as SSA produces it only provides evidence that the data are available in
the year produced. It does not provide sufficient evidence of the underlying data
supporting the FY being audited. We have addressed the technical comments as
deemed appropriate.




30
     SSA OIG, Performance Indicator Audit: Outstanding Debt (A-02-05-15116), p. D-2, January 27, 2006.
31
 OMB, Circular A-11, Preparing and Submitting the Annual Performance Report, Section 230.5,
November 12, 2010.
32
     Id..


Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                           10
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Process Flowchart
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)
                                                                           Appendix A

Acronyms
Act             Social Security Act
DI              Disability Insurance
EDCS            Electronic Disability Collect System
ETAAC           Electronic Tax Administration Advisory Committee
FY              Fiscal Year
GAO             Government Accountability Office
GPRA            Government Performance and Results Act of 1993
IRS             Internal Revenue Service
MCS             Modernized Claims System
OASDI           Old-Age, Survivors and Disability Insurance
OMB             Office of Management and Budget
PAR             Performance and Accountability Report
PI              Performance Indicator
Pub. L. No.     Public Law Number
RRA 98          Internal Revenue Service Restructuring and Reform Act of 1998
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)
                                                                           Appendix B

Process Flowchart




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)           B-1
                                 Data Flow Diagram - Performance Measure 4.3a:
        Production processing flow for hard copy and electronically entered wage reports (W-3/W-2 Forms)




 Paper wage reports
   sent to SSA by                                                                                     Wage report submissions are received online through EDT, OWRS-Internet, W2 Online,
     Employers                                                                                               and Web Service. Electronic wage reporting is also received from state
       (2)                                                                                               and federal entities (and one payroll provider) via Connect:Direct or Cyberfusion
                                                                                                                                             (1)
                                                                     WBDOC converts
                             Paper W-3's/W-2's are                   scanned data from
                            sorted/ranged at Wilkes                  W-3's/W-2's to text
                                   Barre, PA                                   (6)
                                     (5)

                                                                      Wage reports are
                                                                      swept into Staging
                                                                                                                                   BSO/EWR
                                                                        DASD using
                                                                      Cyberfusion COT                                                 (3)
                                                                               (7)



                                                                        Staging DASD                                             Staging DASD
                                                                               (8)                                                    (4)




                                                                                           Employer Balancing                                            ( 10 )
                                                                                                 (9)                                         Employer Balancing is a blanket step
                                                                                                                                             where the following processes take
                                                                                                                                             place
                                                                                                                                             • IFFR
                                                                                                                                             • File Control
                      Key Control Point - CP-1                                                                                               • Edit Balance
                      Jobs are scheduled to run nightly (excluding weekends and
                                                                                                                                             • Dispatcher
                      holiday’s) to update EMODS with changes from PERSUB.
                                                                                                                                             • Data Exchange


                                                                                               PERSUB
                                                                                               Database
                                                                                                 ( 11 )                                         The Persub database is
                                                                                                                                                updated as a result of the
                                                                                                                                                Employer Balancing process.




                                                                                           Production process
                                                                                            that copies wage                      Key Control Point – CP-2
                                                                                            report records to                     Scheduled nightly jobs updating EMODS with
                                                                                                                                  changes to the PERSUB database run
                                                                                                 EMODS
                                                                                                                                  successfully.
                                                                                                 ( 12 )



                                                                                                                                          Queries the W-3 EMODS
                                                                                                                                          data base with canned
                                                                                                                                          SQL programs to
                                                                                                                                          generate report noted
                         Key Control Point – CP-3                                              EMODS                                      below
                         Access to change data within EMODS is restricted to                   Database
                         authorized individuals.                                                 ( 13 )


                                                                                                                                Key Control Point – CP-4
                                                                                                                                Changes made to data within the EMODS database are logged
                                                                                                                                and reviewed.
                                                                                             RPT1105_00
                                                                                        Weekly Trends in Filing
                                                                                     Number of W-2's (Receipt Year –
                                                                                              All Versions)
                                                                                            As of: run date
                                                                                                 ( 14 )




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                                                                                                                     B-2
Process Flowchart Acronyms
BSO/EWR        Business Services Online/Electronic Wage Reporting
CAL            Compassionate Allowance
CR             Customer Representative
DASD           Direct Access Storage Device
DB             Database
DDS            Disability Determination Services
DOORS          Detailed Office Organization Resource System
EDCS           Electronic Disability Collect System
EDT            Electronic Data Transfer
EFI            Electronic Folder Interface
EMIS           Executive Management Information System
EMODS          Earnings Modernization Operational Data Store
HTBLC          Hierarchical Table for Local Management Information
IFFR           Initial File Format Record
MCS            Modernized Claim System
MEMAP          Electronic Service Delivery/Internet Management Information
               Architecture Project
MI             Management Information
MIAR           Management Information Architecture
MIDIB          Management Information Disability
NDDSS          National Disability Determination Services System
ODS            Operational Data Store
OEEAS          Office of Earnings, Enumeration, and Administrative Systems
ORSIS          Office of Retirement and Survivors Insurance
OWRS           Online Wage Reporting System
PAR            Performance and Accountability Report
PERSUB         Production Employer Submission Database
QDD            Quick Disability Determination
SDR            Structured Data Repository
SQL            Structured Query Language
WBDOC          Wilkes-Barre Data Operation Center
WMI            Workload Management Information




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)     B-3
                                                                                  Appendix C

Scope and Methodology
We obtained an understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act of 1993 (GPRA)1 business processes related
to performance indicators (PI) Achieve the target percentage of initial disability claims
filed online; Achieve the target percentage of retirement claims filed online; and Achieve
the target percentage of paper Forms W-2 received. We completed this through
research and interviewing key SSA personnel responsible for the PIs. The primary SSA
components responsible for these measures were the Offices of Vision and Strategy
within the Office of the Chief Information Officer; Electronic Services; and Earnings,
Enumeration and Administrative Systems.

Through inquiry, observation, and other substantive testing, including testing source
documentation, we performed the following:

•   Reviewed prior SSA, Government Accountability Office (GAO), Office of the
    Inspector General, and other reports related to SSA’s GPRA performance and
    related information systems.
•   Reviewed applicable laws, regulations, and SSA policy.
•   Interviewed appropriate SSA personnel to confirm our understanding of the PIs.
•   Flowcharted the processes (see Appendix B).
•   Documented the data sources used to report on the PIs.
•   Identified and tested the critical (key) internal controls (automated and manual) over
    the systems from which performance data were generated.
•   Determined the adequacy, accuracy, reasonableness, completeness, and
    consistency of performance data reported in SSA’s Fiscal Year 2009 Performance
    and Accountability Report.
•   Recalculated each measure to ascertain its accuracy, as necessary.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related PIs. We used our understanding of the Agency’s mission, goals, objectives, and
processes to determine whether the PI appeared to be valid and appropriate.




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).

Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                            C-1
We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)           C-2
                                                                           Appendix D

Agency Comments




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)
                                          SOCIAL SECURITY

MEMORANDUM


Date:      December 14, 2010                                                       Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Dean S. Landis /s/
            Deputy Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit: Electronic

            Service Delivery” (A-15-10-11073)--INFORMATION




           Thank you for the opportunity to review the draft report. Attached is our response to the report.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




           Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: ELECTRONIC SERVICE
DELIVERY” (A-15-10-11073)


Thank you for the opportunity to review the subject report. We offer the following comments.


GENERAL COMMENTS

You reviewed three fiscal year (FY) 2009 performance indicators (PI) during your audit. For all
three, you “noted several instances where SSA was unable to provide data related to critical
internal controls over the systems from which the specified performance data were generated.”
For two of the three, you “were unable to verify the adequacy, accuracy, reasonableness,
completeness, and consistency of the underlying data.” You make no formal recommendations
concerning your statements, but you suggest it may be an opportune time for us to reevaluate our
practices for compiling and maintaining management information (MI) to support PI data.

Due to technical and staffing constraints, we are not implementing any new processes for storing
PI data. To obtain the data you seek, we suggest you consider an equally effective technique for
auditing PI activity -- a “real-time” review of performance measure data as we produce it, rather
than trying to reconstruct MI a year later. While FY 2010 was not the focus of your current
audit, it appears you used a real-time approach to review data from part of that year and “did not
find any discrepancies or issues with the underlying data or the calculations for FY 2010.” Your
findings are a strong indication that our performance information is reliable. Going forward, a
similar real-time review should be sufficient to confirm that fact.

We have previously taken actions to obtain better MI for two of the PIs you reviewed: Achieve
the target percentage of initial disability claims filed online; and Achieve the target percentage
of retirement claims filed online. In 2007, we implemented “iClaim Localized MI.” This
application provides data on geographic trends for people filing online disability and retirement
claims. We use the data in determining where to focus our efforts in encouraging more people to
use iClaim.




[In addition to the information listed above, SSA also provided technical comments
that have been addressed, where appropriate, in this report.]




Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)                      D-2
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
